 




                            Testimony of

                 The Honorable Todd J. Zinser
                         Inspector General

                    U.S. Department of Commerce


                        before a hearing of the

           Committee on Oversight and Government Reform
        Subcommittee on Federal Workforce, U.S Postal Service,
                          and the Census
                   U.S. House of Representatives

    U.S. Census Bureau: Addressing Data Collection Vulnerabilities


                         September 18, 2014




                                   0
 


Chairman Farenthold, Ranking Member Lynch, and Members of the Subcommittee:

We appreciate the opportunity to testify today on vulnerabilities in Census Bureau data
collection and quality assurance processes. The Census Bureau is best known for its
Constitutional duty to count the population and housing every 10 years; however, throughout
the year the Census Bureau conducts many other surveys. The Census Bureau entirely funds
some of these surveys; others it jointly sponsors with other agencies, or conducts on behalf of
other agencies on a reimbursable basis. For example, the Census Bureau jointly sponsors the
Current Population Survey (CPS) with the Bureau of Labor Statistics (BLS). The CPS is the
primary source of labor force statistics in the United States and the results of the survey are
used to generate the national unemployment rate every month.

The Census Bureau’s conduct of the CPS by its Philadelphia Regional Office became the subject
of allegations of widespread data falsification, including that the Philadelphia Regional Office
manipulated the unemployment survey in the months leading up to the 2012 Presidential
election. These allegations were investigated by my office. On May 1, 2014, we issued a public
report concerning our findings.

Our testimony today will briefly summarize (1) the allegations concerning the Philadelphia
Regional Office and results of our investigation, (2) observations related to Census Bureau
falsification policies, and (3) recommendations stemming from our investigation. I request that
our entire report of investigation on this matter be made part of the hearing record.

Background
The Census Bureau employs between 9,500 and 10,000 personnel, approximately 7,000 of
whom are Field Representatives (i.e., the professional interviewer staff). The Census Bureau
recently restructured and realigned its field organization and regional office management
structure, reducing the number of regional offices from 12 to 6. In June 2014, we initiated an
audit of the restructuring and associated management reforms. One of the objectives of that
audit is to determine whether the Census Bureau is meeting, or on pace to meet, the goals of
the realignment, as well as the impact of the realignment on its ability to ensure the quality of
its surveys.

Over the years, the Department of Commerce Office of Inspector General (OIG) has provided
substantial oversight of the Census Bureau. For the 2010 decennial, which cost nearly $13
billion, OIG issued 30 reports, Congressional testimonies, and other work products during the
decade, culminating in a Final Report to Congress in June 2011. Since that time, over the past 3
years, we have issued a dozen more public reports and work products concerning the Census
Bureau. On May 21, 2014, for example, we issued, “The Census Bureau Lacks Accurate and
Informative Cost Data to Guide 2020 Research Through a Constrained Budget Environment.”
Among the objectives of our audit was to evaluate the Census Bureau’s process for
implementing mandatory budget reductions; however, we were unable to make an assessment
because we found that the accounting system for the Census Bureau does not contain accurate
project cost data. We will continue to focus our oversight on the Census Bureau’s preparation
for the 2020 decennial.



                                                 1
 


Allegations Investigated
On October 30, 2013, OIG received information through a web hotline complaint alleging that
the Census Bureau’s Philadelphia Regional Office falsified data on the CPS. Several weeks later,
on November 18, 2013, media reports alleged that the Philadelphia Regional Office had “faked”
the national unemployment survey (i.e., CPS) in the months leading up to the 2012 presidential
election in order to artificially decrease the unemployment rate. There were also allegations
regarding widespread falsification in the Philadelphia Regional Office—and that the Regional
Office, along with Census Bureau headquarters management, covered up data falsification.

The key allegations, received from various sources, are summarized into the following
questions:

       Did a Survey Supervisor in the Philadelphia Regional Office instruct subordinates to
        falsify survey data?

       Did a Survey Supervisor change subordinate survey responses to manipulate data, and
        did he or a second Survey Supervisor prevent falsification reports from being reported
        to Census Bureau headquarters?

       Did any alleged data falsification on the Current Population Survey in the Philadelphia
        Regional Office in August and September of 2012 have a measurable impact on the
        unemployment rate leading up to the 2012 presidential election?

While our investigation did not substantiate the existence of widespread falsification in the
Philadelphia Regional Office that artificially decreased the national unemployment rate in the
months leading up to the Presidential election in 2012, we did identify several vulnerabilities
with respect to the Census Bureau policies and processes for detecting and preventing data
falsification—and made a series of recommendations to strengthen the Census Bureau’s
processes and internal controls.

Methodology
OIG conducted over 100 interviews of current and former Census Bureau employees in the
Philadelphia Regional Office, headquarters, and other regional offices. We reviewed documents
provided by the complainant, personnel files, a report of investigation concerning an Equal
Employment Opportunity Commission (EEOC) complaint relevant to the allegations, training
materials, policies for interviewing procedures, quality control and assurance processes, and
performance assessments. We also conducted extensive analysis of Census Bureau CPS data
and BLS employment statistics data, as well as other data relevant to our investigation. A more
detailed description of our methodology is included in appendix A.




                                                 2
 


Results of Investigation into Survey Falsification Allegations
       1. Did a Survey Supervisor in the Philadelphia Regional Office instruct
          subordinates to falsify survey data?

              Our investigation did not substantiate the allegation that a Survey Supervisor instructed
              his subordinates to falsify survey data. The complaint and one key witness alleged that in
              a July 26, 2010, conversation the supervisor of the key witness instructed the key
              witness to falsify survey data and stated that he would cover for the key witness if the
              key witness was caught. The complainant alleged that on July 27, 2010, the supervisor
              left a voice mail message for her during which he repeated the instructions he gave to
              the key witness. There was no copy of the voicemail message kept and the message was
              not otherwise transcribed by the complainant. The complainant identified two witnesses
              who had listened to the voice mail message at the time. We interviewed those
              witnesses and they have varying recollections of the contents of the voice mail message.
              However, neither of the third-party witnesses recalls the message specifically directing
              the survey data falsification. OIG interviewed a sample of 50 field staff in the Philadelphia
              Regional Office, and none of the witnesses reported ever being asked to falsify survey
              data. The Survey Supervisor who was the subject of the allegations was interviewed,
              denied ever instructing any employee to falsify survey data, and voluntarily submitted to
              a polygraph examination, which indicated no deception.

       2. Did a Survey Supervisor change subordinate survey responses to manipulate
          data, and did he or a second Survey Supervisor prevent falsification reports
          from being reported to Census Bureau headquarters?

              Our investigation did not substantiate allegations that the Survey Supervisor or his
              Manager tampered with subordinate’s survey responses or deleted their emails. Our
              investigation determined that, when a Field Representative enters survey data, the
              system generates an audit trail (also known as a “trace file”): each entry screen, field
              update, and entered value is logged by the system and time-stamped. If a Census Bureau
              employee modifies survey data after the initial entry, the audit trail would list the
              specific fields that were updated. A supervisor cannot remotely log in as a subordinate
              and change the subordinate’s survey responses; the supervisor would need to use the
              subordinate’s laptop to change recorded responses. OIG reviewed the audit trails for
              surveys conducted by the key witness and found that the data fields were only entered a
              single time. In other words, after key witness’s initial entry, the audit trails do not
              indicate that the data was modified or altered. Additionally, we reviewed the audit trails
              for all of the supervisor’s completed CPS cases during July and August 2010, the dates
              alleged in the complaint, and did not find evidence that the survey supervisor altered
              cases of the key witnesses or anyone else in an attempt to cover up falsification. To
              further determine whether supervisors attempted to cover up the key witnesses’
              falsification during reinterview,1 we reviewed the reinterview cases—and, combined
                                                            
1
 Reinterview is the primary quality assurance process used by the Census Bureau to assess the quality of the
surveys conducted by Field Representatives.



                                                               3
 


        with the evidence in the audit trails described above, we found no evidence that
        supervisors tampered with the cases conducted by the key witness to cover up
        falsification.  Further, OIG conducted extensive investigative activities to uncover other
        examples of supervisors altering survey responses. No other instances were identified.
        For example, OIG interviewed a sample of 50 field staff in the Philadelphia Regional
        Office. None of them reported any concerns of supervisors changing survey responses.

    3. Did any alleged data falsification on the Current Population Survey in the
       Philadelphia Regional Office in August and September of 2012 have a
       measurable impact on the unemployment rate leading up to the 2012
       presidential election?

        Our investigation did not substantiate the allegation that the national unemployment
        rate was manipulated by the Philadelphia Regional Office in the months leading up to the
        2012 presidential election. Nor did our investigation find any evidence to support that
        such manipulation is likely from a statistical perspective. OIG performed the following
        analyses: (1) reviewing the key witness’ case outcomes (e.g. employed, unemployed, not
        in labor force) to assess whether there was an unexpectedly low number of
        unemployed cases in his or her workload; (2) assessing whether it was theoretically
        possible for Field Representatives to artificially depress the unemployment rate through
        falsification; and (3) considering the likelihood of Field Representative falsification
        substantively affecting the national unemployment rate in September 2012, given the
        Census Bureau’s quality assurance procedures, employment data trends, and interviews
        with more than 75 Philadelphia Regional Office employees.

        It is theoretically possible, though unlikely, that a large number of Field Representatives
        working in concert could depress the unemployment rate through falsification. Our
        investigation determined that, to move the unemployment rate from 8.1 percent to 7.8
        percent (see highlighted portion of the 2012 row in the table below) through falsification
        between August and September 2012, it would have taken approximately 78 Field
        Representatives changing all unemployed household members to employed. To do so
        would also require escaping detection from the Census Bureau’s quality control
        measures.

                            National Unemployment Rate by Month

              Jan.   Feb.   Mar.   Apr.   May   June   July   Aug.   Sep.   Oct.   Nov.   Dec.
     2012     8.2    8.3     8.2   8.2    8.2   8.2    8.2    8.1    7.8    7.9    7.8    7.8

     2013     7.9    7.7     7.5   7.5    7.5   7.5    7.3    7.2    7.2    7.2    7.0    6.7

     2014     6.6    6.7     6.7

    Source: BLS




                                                 4
 


      Data trends also support that the drop in unemployment was not the result of
      falsification. The unemployment rate did not exceed 7.9 percent after August 2012 and
      continued to fall after the presidential election, meaning that, if the data were affected
      by falsification, undetected and systematic falsification would have had to continue for
      several months. Since the unemployment rate declined after the presidential election, it
      is even less likely that the trend was caused by data falsification.

      Alternative employment indicators independent of the CPS (and, in turn, independent of
      data collected by the Census Bureau) provide further confirmation of this trend. Instead
      of surveying individuals about their current employment status, as is done by the CPS,
      the BLS Current Employment Statistics (CES) program surveys businesses monthly
      about their number of non-farm payroll workers. The CPS surveys individuals in order
      to determine the percentage of employed people in the United States, while the CES
      estimates aggregate employment, wages, and hours for several hundred industries.
      According to CES, between August 2012 and December 2013 the number of employees
      on business payrolls increased each month (see figure on next page).

    CES Non-farm Employment Compared to the National Unemployment Rate

             CES Non-farm                                              Unemployment
              Employment                                                   Rate
                140,000,000                                                 10%

                138,000,000                                                   9%

                136,000,000                                                   8%

                134,000,000                                                   7%

                132,000,000                                                   6%

                130,000,000                                                   5%
                              Aug-12 Nov-12 Feb-13 May-13 Aug-13 Nov-13
               Non-farm Employment (from CES)       National Unemployment Rate (from CPS)


         Source: OIG analysis of BLS data

      Additionally, ADP, in collaboration with Moody’s Analytics, publishes an independent
      employment report each month using payroll data from 20 percent of U.S. businesses
      Overall, the ADP/Moody’s payroll results closely mirror the CES—the results have a .96
      correlation—and show a similar pattern: between August 2012 and December 2013,
      payroll employment increased every month. If the national unemployment rate
      decreased primarily as a result of falsification on CPS, it would be unlikely for both CES
      and the ADP/Moody’s measure to show consistent monthly job growth.




                                                5
 


       In addition, OIG conducted more than 75 interviews of Philadelphia Regional Office
       employees at all levels, from senior management to field staff. No witness mentioned
       any concerns whatsoever about manipulation of the unemployment rate or anything
       about the 2012 presidential election. In sum, our investigation found no evidence
       supporting the allegation that the national unemployment rate was manipulated by the
       Census Bureau’s Philadelphia Regional Office management in the months leading up to
       the 2012 presidential election.

Observations Related to Census Bureau Falsification Policies
    1. Survey Supervisors do not consistently use the tools available to them for
       detecting and preventing survey data falsification.

       The Census Bureau currently provides Survey Supervisors with tools to help them
       identify and prevent falsification. The Unified Tracking System collects paradata—or
       empirical measurements about the survey process—during and after data collection.
       The Contact History Instrument is an application in the survey instrument that captures
       information about each time a Field Representative attempts to contact a household.
       These tools allow supervisors to analyze specific information regarding a Field
       Representative’s contact attempts with all households in the Field Representative’s
       assignment that could potentially indicate falsification (e.g., an interview conducted after
       midnight). In our interviews for our investigation, however, we found that some
       supervisors are not using these tools.

    2. Census Bureau employees suspected of falsifying data are sometimes
       allowed to continue conducting surveys while they are under investigation
       for falsification.

       OIG’s investigation determined that procedures related to falsification vary by region—
       and that Field Representatives who are being investigated for falsification are sometimes
       allowed to continue to collect survey data during the investigative process. OIG found
       that one region removes all survey work from a Field Representative who is formally
       notified of suspected falsification. However, if the Field Representative disputes the
       claim but the supervisor still pursues the investigative process, the Field Representative
       is allowed to return to work. In this particular region, the Field Representative is
       allowed to conduct interviews up to the point that the Employee Relations Board
       approves termination due to confirmed data falsification.

       In speaking with staff from the other regions, we found that the treatment and
       management of a Field Representative suspected of falsification is largely left to the
       supervisor’s discretion—typically, a Field Representative suspected of falsification has his
       or her survey work taken away at some point in the process, but it varies. In most
       regions, the suspected Field Representative’s ability to continue to work during the
       process is determined on a case-by-case basis. Our interviews indicated that this was
       largely influenced by legal guidance that disfavored placing Field Representatives on
       administrative leave or pulling their cases while they are under investigation for
       suspected falsification.


                                                6
 


    3. The quality assurance operation in the Regional Office is not independent,
       creating potential conflicts of interest.

       For ongoing survey operations (e.g., CPS), within each regional office there is a single set
       of managers and supervisors who are responsible for both regular interview and
       reinterview operations. Reinterview helps determine (1) whether interviews are
       conducted according to proper procedures, (2) instances of data falsification, and (3)
       response error that arises from specific questions on the survey. Since managers and
       supervisors are, at least in part, assessed based on the performance of the Field
       Representatives under their supervision, this arrangement lacks internal controls and
       creates potential conflicts of interest by asking a supervisor to review the work of Field
       Representatives on whose performance (at least partially) that supervisor’s own
       performance is assessed.

       The quality assurance operation conducted during the 2010 decennial census, in which
       data collection and reinterview duties were segregated, is more appropriate and
       eliminates the potential conflicts of interest that ongoing survey operations introduce by
       asking supervisors to manage both data collection and reinterview. Each Local Census
       Office during 2010 decennial census operations included a parallel, but separate,
       organization of office and field staff who were responsible for quality assurance.

    4. Current Population Survey procedural manuals and training materials are
       outdated, inconsistent, and do not discuss falsification.

       Certain Census Bureau policies and manuals have not been updated to reflect the
       reorganized regional office field structure that was finalized in January 2013. At the time
       of our investigation, regional office staff still used outdated materials to manage survey
       operations and train new hires. For example, the CPS office manual had not been
       updated since 2010. The outdated manuals and training materials use outdated terms
       and the outdated titles assigned to various supervisory and managerial positions. At the
       very least, outdated materials cause extra work for trainers and confusion during the
       training process for new hires; at worst, outdated materials and erroneous and
       conflicting instructions can lead to wasted time in the field and even errors in data
       collection.

       We found that the CPS materials, which the Census Bureau uses to train new hires, do
       not mention the prohibition against data falsification and its consequences, though the
       materials do instruct Field Representatives to remind respondents of the possibility of a
       follow-up visit for reinterview. The materials include numerous references to the
       Census Bureau’s confidentiality policy and every Census Bureau employee is required to
       swear an oath of office “not [to] disclose any information . . . to any persons[,] either
       during or after [your] employment.” As evidenced by the focus on confidentiality, the
       Census Bureau has ample opportunity to discuss data falsification and its consequences
       with new hires.




                                                7
 


       In contrast to directions given to Field Representatives with respect to ongoing surveys
       such as the CPS, 2010 decennial census enumerators were given clear and explicit
       definitions of what constituted falsification, instructions to not falsify data, as well as
       clearly stated consequences for intentionally falsifying data including termination from
       employment:

          Data falsification is intentionally and deliberately entering wrong
          information. . . . You must not submit falsified work under any
          circumstances. If you willfully falsify information . . ., you can be found guilty of
          perjury . . . and may be fined up to $250,000 and/or imprisoned up to five years.
          You may be removed from federal service and prohibited from future federal
          employment.

Recommendations
As a result of our investigation, we made the following recommendations:

    1. Implement a reporting mechanism for confirmed data falsifications to survey
       sponsors.

       Currently, for instance, the Census Bureau does not notify BLS about specific instances
       of CPS falsification. Irrespective of whether falsification has a statistical impact on survey
       results, BLS and other survey sponsors have cognizance and should be informed in the
       interest of transparency and full disclosure.

    2. Implement a formal policy that prohibits employees suspected of falsification
       from collecting survey data during the investigative process.

       Under current Census Bureau policies, employees suspected of falsifying data are
       sometimes allowed to continue working during the falsification investigation. A policy
       prohibiting suspected data falsifiers from collecting survey data would prevent them
       from submitting additional inaccurate survey results.

    3. Update procedural manuals and training materials to reflect current
       Regional Office field structure and inform Field Representatives about survey
       data falsification and the consequences of committing falsification.

       Materials used by the Census Bureau to conduct day-to-day survey operations and train
       new employees include references to obsolete regional office supervisory arrangements
       and positions. Training materials for new employees do not discuss survey falsification.
       Educating new employees about survey data falsification and emphasizing the
       consequences of falsification may discourage Field Representatives from falsifying survey
       data.




                                                   8
 


    4. Implement an independent quality assurance process for all survey
       operations.

       The Census Bureau assesses supervisor performance, at least in part, by the work of a
       supervisor’s Field Representatives, and the quality assurance process (i.e., reinterview)
       assesses the quality of the Field Representatives’ work. Currently, the same regional
       office supervisor is responsible for both the interview process and the quality assurance
       process, creating a potential conflict of interest. During the 2010 decennial census,
       quality assurance employees and supervisors were independent from other operations,
       reducing the risk of conflicts of interest.

    5. Ensure that all survey supervisors tasked with detecting and preventing
       survey data falsification are properly utilizing all available tools to safeguard
       against such misconduct.

       While the Census Bureau currently has several tools available for identifying potentially
       falsified cases, supervisors rely primarily on the quality assurance process. For example,
       supervisors can also use the Contact History Instrument which provides the time of day
       Field Representatives attempt to contact respondents. Interviews conducted late at
       night (e.g., after midnight) are at a greater risk for falsification.

    6. Implement internal controls to effectively monitor and limit Field
       Representative workloads in order to reduce the risk of falsification.

       To further reduce the risk for survey data falsification, supervisors should scrutinize
       workloads and staffing levels to avoid assigning atypically large workloads to Field
       Representatives.

By memorandum dated July 30, 2014, the Census Bureau Director agreed with our
recommendations and summarized the responsive actions taken by the Census Bureau. A copy
of the Census Bureau Director’s memorandum is included as appendix B.




                                                9
 


Appendix A: Methodology
OIG conducted over 100 interviews of current and former Census Bureau employees in the
Philadelphia Regional Office, headquarters, and other regional offices. These interviews
included:

       The complainant

       The key witness

       Philadelphia Regional Office management who were alleged to have directed or
        orchestrated falsification
        o OIG conducted a recorded and transcribed interview of each of the managers, as
          well as several follow-up interviews
        o Polygraph examinations of the managers were also conducted

       Witnesses to the alleged falsification instructions identified by the complainant

       Current and former Philadelphia Regional Office senior management during the relevant
        time period

       50 Philadelphia Regional Office field staff (in these interviews, field staff were asked
        whether they had ever been pressured or ordered to cut corners to complete a survey
        or to violate Census Bureau policy)

       All current Philadelphia Regional Office Program Coordinators (In these interviews, the
        supervisors were asked whether they had ever been pressured or ordered to cut
        corners to complete a survey or to violate Census Bureau policy, as well as become
        aware of instances of suspected falsification by their subordinates)

       Various other current and former Philadelphia Regional Office staff, both in the field and
        in the office, deemed relevant to the investigation

       Representatives from Census Bureau headquarters’ Field Division, Human Resources,
        Employee Relations Branch, Legal, and Information Technology

       Chief of the Demographic Statistical Methods Division

       Survey Directors for the CPS and the Consumer Expenditure (CE) Survey

       The Division Chief for Labor Force Statistics, the Division Chief for Data Development
        and Publications, and supervisory statisticians at the Bureau of Labor Statistics (BLS)

       Survey Statisticians from each of the regional offices

       The New York Regional Office Director


                                                 10
 


The following documents were reviewed:

       Documents and notes provided by the complainant

       The key witness’ and Complainant’s personnel files and falsification reports

       Report of Investigation, EEOC Complaint of Key Witness

       Emails regarding the August 2013 American Housing Survey

       Census Bureau training materials, policies for interviewing procedures, quality control
        and assurance processes, and performance assessment

       Various other documents deemed relevant to the investigation

The following data were analyzed:

       CE and CPS audit trails for cases worked by the key witness

       Labor force case outcomes (e.g. unemployed, employed, not in labor force) for
        interviews conducted by the key witness

       Statistical analysis performed by the Census Bureau related to how falsification could
        impact the national unemployment rate

       CPS quality control reports, providing reinterview results by region

       CPS workload report for Field Representatives in the Philadelphia Regional Office

       CPS audit trails for cases completed by managers

       Reinterview cases worked by managers

       Reinterview results for Field Representatives who were suspected of falsifying data
        during August and September 2012

       Labor force case outcomes (e.g. unemployed, employed, not in labor force) for
        employees suspected of falsifying data during August and September 2012

       BLS CES data

       ADP/Moody’s Analytics employment report data




                                                11
 


Appendix B: Memorandum Dated July 30, 2014, from the
Director of the U.S. Census Bureau Summarizing the Bureau’s
Responsive Actions




                             12
 




    13
 




    14
 




    15
